No. ________
______________________________________________________________________

IN THE SUPREME COURT OF THE UNITED STATES

FAGBEMI MIRANDA, Petitioner
v.
MASSACHUSETTS, Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE MASSACHUSETTS SUPREME JUDICIAL COURT
_________________________________________________________________

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
_________________________________________________________________

SUSAN J. BARONOFF
Counsel of Record
Baronoff Law Office
1295 Beacon Street #67
Brookline, MA 02446
baronofflaw@gmail.com
(617) 335-2169

Appendix A

App.A 001

NOTICE: All slip opinions and orders are subject to formal
revision and are superseded by the advance sheets and bound
volumes of the Official Reports. If you find a typographical
error or other formal error, please notify the Reporter of
Decisions, Supreme Judicial Court, John Adams Courthouse, 1
Pemberton Square, Suite 2500, Boston, MA, 02108-1750; (617) 5571030; SJCReporter@sjc.state.ma.us
SJC-11690
COMMONWEALTH

Bristol.
Present:

vs.

FAGBEMI MIRANDA.

October 7, 2019. - June 9, 2020.

Gants, C.J., Lenk, Lowy, Budd, & Kafker, JJ.

Homicide. Self-Defense. Constitutional Law, Assistance of
counsel, Indictment, Grand jury, Admissions and
confessions, Voluntariness of statement. Evidence, Selfdefense, Indictment, Grand jury proceedings, Admissions and
confessions, Voluntariness of statement. Grand Jury.
Practice, Criminal, Capital case, Assistance of counsel,
Indictment, Grand jury proceedings, Motion to suppress,
Admissions and confessions, Voluntariness of statement.

Indictments found and returned in the Superior Court
Department on March 19, 2008.
A pretrial motion to dismiss was heard by Robert C.
Cosgrove, J.; a pretrial motion to suppress evidence was heard
by Gary A. Nickerson, J.; the cases were tried before D. Lloyd
Macdonald, J.; and a motion for a new trial, filed on January
30, 2017, was heard by Thomas F. McGuire, Jr., J.
Susan J. Baronoff for the defendant.
Stephen C. Nadeau, Jr., Assistant District Attorney, for
the Commonwealth.

Appendix A

KAFKER, J.

App.A 002
2

A jury convicted the defendant, Fagbemi

Miranda, of murder in the first degree on a theory of deliberate
premeditation in connection with the 2005 shooting death of
Christopher Barros.1

The victim and the defendant had been

engaged in a raucous verbal argument in the street outside the
defendant's New Bedford home, when the defendant's younger
brother, Wayne,2 intervened with a handgun.

The victim fled

across the street and down a neighboring driveway, with Wayne in
pursuit; the defendant, who had yelled for Wayne to stop, then
dashed down the driveway.

Wayne passed the gun to the

defendant, who fired two shots at the fleeing victim, one of
them fatal.

Police arrested Wayne later that night, as multiple

witnesses had seen him with the gun chasing the victim, and his
indictment for the victim's murder followed roughly one month
thereafter.3

The defendant's indictment and arrest did not

follow for more than two years, after a percipient witness
(neighbor), who recently had been arrested on unrelated drug

The jury also convicted the defendant of assault and
battery by means of a dangerous weapon and unlicensed possession
of a firearm.
1

2

name.

To avoid confusion, we refer to Wayne Miranda by his first

In July 2008, a jury convicted Wayne of murder in the
second degree, and the judge imposed a sentence of life
imprisonment.
3

Appendix A

App.A 003
3

charges, proffered her cooperating testimony identifying the
defendant for the first time as the shooter.
On appeal, the defendant challenges the trial judge's
failure to instruct the jury on self-defense, and raises
numerous other issues, including ineffective assistance of
counsel, interference with his right to testify, and improper
denial of his motions to dismiss the grand jury indictments and
to suppress evidence.

For the reasons explained infra, we

affirm the defendant's convictions as well as the orders denying
his pretrial and postconviction motions, and decline to grant
extraordinary relief pursuant to G. L. c. 278, § 33E.
Background.

1.

Facts.

We summarize the facts the jury

could have found based on the Commonwealth's evidence, reserving
certain topics for later discussion.

Not long before 8:30 P.M.

on the evening of October 10, 2005, the defendant and the victim
engaged in a loud verbal argument on the pavement outside the
house where the defendant lived with his family (Miranda home).4
Their shouting drew the attention of several neighbors.

The

defendant assumed an aggressive stance, pointing and coming in
close to the victim's face, and both men gestured with their
hands as they screamed at each other, but they never made

The defendant's younger brother, Wayne, their mother,
their grandmother, and a cousin also then resided at the Miranda
home.
4

Appendix A

physical contact.

App.A 004
4

A third, unidentified man stood looking on

nearby, next to a sedan parked on the street outside the Miranda
home.
The defendant's younger brother, Wayne, soon ran out the
front door of the Miranda home and down the stairs into the
street, joining the fracas.

The defendant inched back and

looked on as Wayne approached within inches of the victim's face
and shouted angrily into the victim's ear for several minutes.
Wayne then ran back inside the Miranda home.

The defendant

raised his fists, and the shouting match with the victim
resumed.
About one minute later, Wayne reemerged from the front
door, still angry, a black handgun now visible in his right
hand.

Following close behind, Wayne's grandmother yelled at him

to stop and get back into the house, and she then tried to block
his path and grab him.

Ignoring her directive, he proceeded

halfway down the porch stairs and then jumped over the bannister
down onto the pavement.

As Wayne landed next to the defendant,

the victim looked at Wayne and yelled:
Waynie?

Are you serious?

"Are you serious,

It's like that?

It's like that?"

Shouting back, Wayne pointed the handgun at the victim's
forehead at very close range.

The victim stepped back, holding

his hands up by his shoulders, palms facing out, while saying
"No."

The defendant tried to get the gun away from Wayne, and

Appendix A

App.A 005
5

then attempted to push him to go back into the house, while
yelling for Wayne to stop and repeatedly shouting "no."
The victim ran across the street and into the open driveway
alongside the neighbor's house, proceeding down the narrow path
between the right side of the house and a car parked in the
middle of the driveway.
path.

Wayne chased after him, along the same

The defendant dashed down the driveway after Wayne, using

the wider path along the other side of the car.

The

unidentified man followed last.
From where it met the sidewalk on the east side of the
street, the twelve-foot width of driveway led straight back,
alongside the house and then about twenty feet further, where it
ended in front of a long multibay garage that formed the rear
perimeter of the property.

To the left of the driveway was a

small back yard, about forty feet wide, which filled the space
between the rear of the house and the garage, with a wooden
picket fence running along its north boundary, opposite the
driveway.

There was a large tree growing in the yard, right up

against the fence, roughly ten feet west of the garage.5

The jury participated in a view of the crime scene and its
surrounding vicinity, which would have informed their spatial
understanding of the various photographs, diagrams, and other
evidence introduced at trial relative to the layout of the crime
scenes.
5

Appendix A

App.A 006
6

As the victim raced down the driveway with Wayne in close
pursuit, the neighbor, who lived on the second floor of the
house on that property, opened an adjacent window and yelled
out, "No, Waynie, no.

Think of your daughter."6

Still running,

the Miranda brothers converged in front of the parked car, and
together they continued down the length of the driveway, coming
to a halt near some garbage cans in front of the garage.
Following a brief exchange of words, Wayne passed the gun to the
defendant.

The neighbor saw the defendant raise the gun and

point it toward the picket fence on the far side of the yard.
The sound of two gunshots rang out in quick succession,
emanating from the direction of the yard.

The victim's body was

later found on the opposite side of the picket fence.
Seconds later, another neighborhood resident (first
reporter) observed both Miranda brothers and the unidentified
man emerge from the driveway onto the sidewalk, where one of the
brothers passed the gun to the other brother.

The two brothers

then proceeded back across the street and inside the Miranda
home, while the unidentified man got into a black car and drove

The neighbor had lived on the second floor of the house
for about four or five years, with her two school-age children;
the house belonged to her grandfather, who lived on the first
floor. The neighbor was friendly with Wayne and knew the rest
of the Miranda family. She recognized the victim, because Wayne
had been outside talking with the neighbor on her porch about
two weeks before the shooting, when the victim showed up on
their block and Wayne introduced him to the neighbor.
6

Appendix A

App.A 007
7

off. Perched on a friend's fourth-floor apartment balcony with a
view up the street, the first reporter noted the victim's
failure to reemerge from the driveway.

He also observed that

the black car sped off without stopping anywhere in the vicinity
to pick up anyone.7
About five minutes later, when police responded to an
8:32 P.M. dispatch of shots fired in the area,8 the defendant was
standing by himself on the porch of the Miranda home.

A marked

police cruiser stopped in front of the Miranda home, and one of
the arriving officers asked the defendant if he had heard any
gunshots.

The defendant replied that he just had been the

target of gunshots.

The officer climbed the porch stairs,

seeking additional details.

The defendant appeared jittery as

he told the officer that he had been walking to the house from
his nearby parked car, when a black Ford vehicle stopped near

Police located the car later that evening, parked at the
home of the victim's sister, on the opposite end of the city.
No weapons were found when the police searched the vehicle.
7

Two neighbors who witnessed parts of the altercation
before the shooting and heard (but did not see) the gunfire
called 911 to report the incident. The initial caller was the
first reporter. From certain of the windows and a balcony in
his friend's apartment, he had a clear view to the north, in the
area of the street near the Miranda home (without visibility
into the driveway or yard of the neighbor's house). The first
reporter telephoned police when he and his friend (who both knew
the Miranda family, but did not recognize the victim) saw Wayne
come out onto the porch of the Miranda home with the gun. The
neighbor initiated the second 911 call from her house, right
after she heard the shots fired in her yard.
8

Appendix A

him on the street.

App.A 008
8

Someone called to him from the back seat

shortly before a man wearing a mask jumped out of the vehicle
and pursued the defendant across the street, down the driveway
next to the neighbor's house, and into the back yard.

As the

defendant climbed over the fence into a neighboring yard, the
man fired two shots at him.

The officer asked the defendant to

come across the street and point out the fence he was climbing
when the man fired at him.

The defendant stated that his

grandmother was upset, and he wanted to go speak with her; the
officer assured him that it would only take a moment, so the
defendant agreed.
The defendant accompanied the officer across the street,
into the neighbor's driveway, and down to the edge of the yard,
where four or five other law enforcement officers were searching
the area for evidence with flashlights.9

He pointed to the

picket fence on the north side of the yard and identified it as
the one he was climbing when the masked man fired.

He then

asked the officer if he could leave and see his grandmother;
following an affirmative response, he departed.

Police located two spent bullet casings on the ground in
the area near the garbage cans. At the defendant's trial, the
Commonwealth's ballistics expert testified that both casings
were of the same caliber and manufacturer, and he opined, based
upon his analysis, that both were shot from the same unknown
weapon. He also stated that most common handguns that shoot
that type of ammunition eject spent cartridge casings to the
right.
9

Appendix A

App.A 009
9

Police soon located the victim's unconscious body on the
other side of the picket fence, in the corner of the adjacent
residential lot.10

The victim was lying belly down and partly

rolled over onto the left side, with his head turned to face the
picket fence.
nearby.

The victim was unarmed.

No weapons were found

A bullet wound was visible under his left arm, and his

jeans were stained with blood.

Despite resuscitation efforts,

the victim remained unresponsive, and was pronounced dead upon
arrival at the hospital.11
Meanwhile, the neighbor was pacing between the rooms of her
second-floor residence when she glimpsed the beams of police
flashlights in the driveway and yard.

From her bathroom window,

Some of the pickets in the part of the fence near the
body were missing, and others were broken. Just over that part
of the fence, on the ground in the neighbor's back yard, police
found a broken picket, stained with what looked like blood.
10

The autopsy confirmed that the victim was shot twice and
identified a cut on his left palm near the wrist. The first
shot, which was fatal, entered the front of the left bicep at
about a forty-five degree downward angle, piercing both lobes of
the left lung and the spinal column. The second bullet entered
through the back of the victim's left upper thigh, left through
the victim's "right groin area," and got caught in the victim's
clothing. In the expert opinion of the Commonwealth's medical
examiner, the damage from the first bullet would have caused
death in "some number of minutes," which the victim likely spent
coughing up blood and struggling to breath. The projectiles
recovered from the victim's body and clothing were of a caliber
consistent with the discharged cartridge casings found in the
neighbor's back yard. The Commonwealth's expert was unable to
opine whether they were shot from the same weapon, because that
conclusion would require access to the gun that shot them.
Police never found the murder weapon.
11

Appendix A

App.A 010
10

the neighbor caught the attention of an officer.

The neighbor

spoke to the officer for about two minutes, but did not report
what she had seen in the driveway and yard before the gun shots.
When the officer asked the neighbor to come to the police
station to make a formal statement, she refused because, as she
later testified, she was scared of the Mirandas.12
On the street, a number of people had gathered in the
vicinity of the crime scene.

Officers located the defendant

among them and told him that detectives would want to speak with
him at the station.

They escorted him to the marked police

cruiser that was parked along the curb outside the Miranda home,
and he got into the back seat without protest.

An officer then

drove the defendant to the station, escorted him inside, and
left.
At about 10:30 P.M., another officer met the defendant in
the lobby of the police station.

The defendant agreed to speak

with the officer, and accompanied him to an interview room in
the detective unit.

The officer did not provide the defendant

with Miranda warnings, and made no effort to record the
interview.

The defendant told the officer essentially the same

story he had reported to officers earlier that evening, about a

After the shooting, the neighbor received multiple
telephone calls from the Miranda home; there were "a lot" of
calls, but she answered none.
12

Appendix A

App.A 011
11

masked man who pursued him across the street and shot at him as
he fled over a neighbor's fence.

The defendant also admitted

that he knew the victim, but not well, and had not seen him for
three to five days.

After the interview, the defendant

consented to submit to a gunshot primer residue test of his
hands, which a detective performed, with the defendant's
cooperation, at about 11:15 P.M.

The detective who secured the

gunshot residue sample from the defendant's hands had performed
the same test on Wayne about one hour earlier.

The record does

not reflect precisely when Wayne arrived at the station or
whether the defendant knew he was there.

Subsequent test

results indicated the presence of gunshot residue on both the
defendant's hands, and also on Wayne's left hand.
After submitting to the test, the defendant did not leave
the station.

More than one hour later, he was seated alone

inside a conference room when a State police trooper entered and
asked to speak with him.

The defendant agreed to speak with the

trooper, who neither read him Miranda rights nor attempted to
record their conversation.

The defendant told the trooper the

same basic story he had provided to officers twice previously,
with minor discrepancies.

He admitted that both he and Wayne

knew the victim but did not "have any problems" with him.

When

the trooper told the defendant that Wayne had been arrested, the

Appendix A

App.A 012
12

defendant stated that he thought Wayne was inside the house
during the shooting.

The defendant was not arrested.

The next morning, the neighbor left her home around 5:30
A.M. and walked to meet a friend for a ride to work.

As she

crossed the street, the defendant and his cousin met her on the
sidewalk.

The defendant "grabbed" her and whispered in her ear

that he wanted to talk to her, and the cousin whispered in the
other ear that she would be all right.

She continued walking,

and met her friend, but could only work for three hours, because
she "was an emotional wreck."

Later that same day, the neighbor

answered a knock at her front door and found two police officers
on the doorstep.

They were canvassing the neighborhood, seeking

information in their ongoing homicide investigation.

The

officers noted that her entire body began shaking when she
opened the door and realized they were police.

They were unable

to obtain any information from her, because "she was stammering
and stuttering her words."
Approximately eighteen months later, in April 2007, police
executed a search warrant at the neighbor's home, leading to the
arrests of the neighbor and her then boyfriend (who lived with
her at that time) for trafficking cocaine in a school zone, and
related charges.

The neighbor was arraigned and released on

bail, and later filed a motion to suppress evidence in her case,
which was denied.

During the two-year period between the

Appendix A

App.A 013
13

shooting and the order denying her suppression motion, the
neighbor and her daughter continued to reside at that house, and
saw the defendant "constantly."
The neighbor entered into a cooperation agreement with the
Commonwealth whereby she would avoid incarceration in connection
with the pending drug charges and receive relocation assistance
through witness protection13 in exchange for her truthful
testimony in connection with the shooting.

She later testified

as a witness for the Commonwealth on three occasions:

first, in

March 2008, during proceedings before the grand jury that
returned the indictments against the defendant; again, four
months later, at Wayne's trial; and finally, almost five years
later, at the defendant's trial.
2.

The defense case at trial.

At trial, defense counsel

sought to raise reasonable doubt that the defendant intended to
cause the victim's death through vigorous cross-examination
targeting the neighbor's credibility and the reliability of her
identification of the defendant as the shooter.

Specifically,

counsel concentrated on (1) her initial failure to cooperate
with police, and sudden change of heart more than two years
later, while confronting the prospect of a nearly certain

The assistance included a cash payment in the amount of
$400 to the neighbor and direct payment of living expenses
(temporary lodging, moving, rent, etc.) in the amount of
$13,863.59.
13

Appendix A

App.A 014
14

conviction on charges carrying a sentence of imprisonment; and
(2) the more than $14,000 the Commonwealth expended in
connection with her relocation under the terms of the plea deal,
which led counsel to characterize her as "a paid witness."
During cross-examination of the first reporter and his friend,
defense counsel focused on drawing out facts to support an
inference that Wayne had been the shooter, including his intense
displays of anger toward the victim, and observations of him
holding the gun upon entering the driveway and again upon
leaving it, shortly after the sound of gunshots.

It was for

these reasons that the first reporter had told the 911 operator
unequivocally that Wayne shot someone.

Both the first reporter

and his friend testified that soon after Wayne emerged from the
Miranda home holding the gun, the defendant tried to stop him:
he said "no, no, no" and tried to push Wayne to go back in the
house, but Wayne refused.

Defense counsel also questioned the

reliability of any inference to be drawn from the gunshot
residue test results, by examining the expert as to numerous
alternative scenarios that could yield positive residue test
results, apart from pulling the trigger.
Against the advice of counsel, the defendant chose to
testify.

He was the only witness for the defense and testified

in uninterrupted narrative form, for reasons explained infra,
without objection from the Commonwealth.

Defense counsel's

Appendix A

associate asked him:

App.A 015
15

"[W]hat would you like to tell the jury?"

The defendant replied:

"I would like to tell the jury my -- the

truth that happened that night on October 10th, 2005."

He then

proceeded to narrate his version of events, without questions
from counsel or the associate to direct his account.
The defendant testified as follows:

That evening, he drove

home after dinner at a nearby restaurant and parked his car on
the west side of the street.

When he got out of the car, he

noticed an unfamiliar black vehicle parked across the street
from the Miranda home.

As he neared home on foot, the defendant

recognized the victim as the driver of the unfamiliar car, and
approached with his hand extended in greeting.

The victim got

out of the car and "for no apparent reason" punched the
defendant on the left side of his face, with enough force that
the defendant stumbled.

When the defendant regained his

balance, he shouted at the victim to explain himself.

Rather

than explain, the victim spewed expletives at the defendant, and
the two men continued shouting at each other in the middle of
the street, posturing with their "fists" up to fight, but not
coming to blows.
As the defendant "went to swing" a punch, the victim backed
up, and the defendant noticed another man (unidentified man)
coming around from the passenger side of the black car to stand
in the street in front of the vehicle.

Although the defendant

Appendix A

App.A 016
16

did not see any weapon on the unidentified man or the victim, he
sensed he was outnumbered and yelled out, in hopes that one of
his brothers would come outside to his aid.

Soon thereafter,

Wayne ran out the front door of the Miranda home with the gun,14
and then jumped down into the street, "in defense of" the
defendant.
Although Wayne knew "nothing about what happened," there
had been "a lot" of shootings in the neighborhood.15

As Wayne

came down into the street, the victim said, "Mother-fucker, I'm
going to kill you.

Come at me with that, I'm going kill you."

Still holding the gun, Wayne moved in an attempt "to get [the
victim] away from [the defendant]."

At that point, the victim

"runs and takes off" across the street, with Wayne behind him,
and the defendant "trying to tell [Wayne], 'No, don't, don't
follow him.

Don't.

Don't.'"

When the defendant yelled at him, Wayne stopped at the
entrance to the driveway alongside the neighbor's house.

Just

ahead of him, the victim ran down the driveway, and "kicked out

The defendant admitted that the semiautomatic handgun was
"my illegal gun," and that he knew it was real, operable, and
loaded.
14

"[M]y brother had nothing to do with the situation, he
just came over in defense of me because he didn't know what was
happening with two people around me, what could have transpired
because of the neighborhood that we live in."
15

Appendix A

App.A 017
17

the basement window" of the neighbor's house, alongside a parked
car.16

The driveway was the only one on the street without a

gate and, consequently, according to the defendant, "a known
stash spot area" for weapons and drugs.

Just as the defendant

caught up to Wayne at the entrance to the driveway, it "looked
like [the victim] went to go reach for something" underneath the
parked car.

While the victim was "reaching," the defendant

"thought [he] saw [the victim] grab something," and immediately
reflected, "I hope he ain't reaching for a weapon, I hope not."
At the entrance to the driveway, the defendant took the
firearm from Wayne.

The defendant followed the victim all the

way down the driveway and into the dark yard, running
perpendicular to the driveway.

By the time the defendant

reached the driveway's end, the victim was already the whole way
across the yard, "sideways" on a "platform" near the picket
fence, and it looked like the victim was reaching for a firearm.
The defendant thought he saw a "nickel-plated" firearm in the
victim's hand as the victim was "coming back around."

The

defendant "aimed [and shot] at [the victim's] arm and his leg.

At trial, one of the Commonwealth's police witnesses who
responded to the call of shots fired, and assisted with the
investigation at the crime scene, testified to observing that a
basement window on the ground level near the driveway entrance
was broken. Police obtained the homeowner's consent to enter
and search the basement on the night of the shooting, but did
not locate anything of interest to the investigation.
16

Appendix A

App.A 018
18

Never intentionally for the body, just to disarm him and stop
the mobility there, that's all."

The defendant told the jury

that he did not intend to kill the victim, insisting that he was
not "a bad person."
On cross-examination, the defendant expressly admitted that
he, and not Wayne, had shot the victim.

He denied that the

victim had put his hands in the air, but admitted that he could
see no indication that the victim had a weapon, either while on
the street or after he thought he saw the victim "grab
something" from under the car in the driveway.

The defendant

also denied that he "chased" the victim, but admitted to
"following" him, explaining that it "happened all so fast" that
"there was no conscious decision."

Although still insisting

that he did not intend to kill the victim, the defendant stated
that he held the gun in "two hands to get a steady aim," and
then admitted that he intentionally shot at the victim, twice,
while the victim was climbing over the fence.

At the court's

direction, he complied with the prosecutor's request to "show
the jury how [he] aimed the gun when [he] killed [the victim]."
In response to cross-examination questions designed to
demonstrate that nothing prevented the defendant or Wayne from
stopping chasing the victim or going back into their home, the
defendant became indignant:

Appendix A

App.A 019
19

"I'm not going to run away. I'm going to protect my
house. That's my house, that's my grandmother, that's
my baby brother. I'm not going to run away. I'm
going to protect my house. I got the right as a man,
as the man of the household, the oldest in the
household, I'm going to sit in front of my house and
no one is going to come near my house."
He also told the prosecutor that the driveway entrance was
"directly across" from the front door to the Miranda home:
"[I]f [the victim] would have came out of that driveway while we
were walking in the house and started shooting," then the
defendant, Wayne, and their grandmother all would have been
"caught in the crossfire."17

The defendant admitted lying to

police and claimed he had hidden the gun in the basement of the
Miranda home.

He also acknowledged that he had not testified at

Wayne's trial in 2008, and that he had several previous criminal
convictions, including of cocaine distribution, witness
intimidation and obstruction of justice, resisting arrest, and
assault and battery of a police officer.

Defense counsel

objected during cross-examination more than ten times, but
rested the defense immediately after the recess that followed

Trial exhibits showing aerial photographs of the relevant
block of the street demonstrate that the driveway entrance was
not directly across the street from the front door of the
Miranda home, but rather further north, more in line with the
gated driveway along the north side of the Miranda home. The
facade of the Miranda home faced east, with the front door
located north of its midline. The front door is visible,
however, in other photographs introduced at trial, which show
the view looking west from about halfway down the driveway.
17

Appendix A

App.A 020
20

the defendant's cross-examination, without performing redirect
examination or introducing any other evidence.
Discussion.

1.

Omission of self-defense instruction.

On

appeal, the defendant contends that there was sufficient trial
evidence to raise the question whether he was legally justified
in using deadly force to protect himself or another person, and
assigns prejudicial error to the judge's decision not to
instruct the jury on self-defense.18

We disagree.

To gauge the sufficiency of evidence to justify instructing
the jury as to the Commonwealth's burden to prove that the
defendant did not act in self-defense, we "consider the
evidence, from any source, and resolve all reasonable inferences
in favor of the defendant," Commonwealth v. Ortega, 480 Mass.
603, 610 (2018), without "balanc[ing] the testimony of the
witnesses for each side" or "consider[ing] the credibility of
the evidence," Commonwealth v. Santos, 454 Mass. 770, 773
(2009), including the defendant's own testimony, which we must
presume to be true, no matter how incredible, Commonwealth v.

We note the trial judge's initial unprompted inclination,
immediately following the defendant's testimony, that a selfdefense instruction would be "appropriate." This prompted
protest from the prosecutor, and responsive argument from
defense counsel in support of giving the instruction.
Ultimately, after hearing closing argument and further
researching the question, the judge ruled that he would not give
the instruction. Defense counsel objected and made legal
argument in support of the instruction.
18

Appendix A

App.A 021
21

Pike, 428 Mass. 393, 395 (1998), citing Commonwealth v.
Vanderpool, 367 Mass. 743, 746 (1975).

Under this standard, we

consider whether there is any record evidence to support at
least a reasonable doubt that the defendant (1) both actually
and reasonably believed himself in imminent danger of death or
serious bodily harm avoidable only by using deadly force;
(2) sought to avoid confrontation with the victim by using all
proper means and reasonably available avenues of escape prior to
resorting to deadly force; and (3) used only that level of force
reasonably necessary to prevent occurrence or reoccurrence of
attack.

See Commonwealth v. Harrington, 379 Mass. 446, 450

(1980); Model Jury Instructions on Homicide 24-25 (2018), and
cases cited.
case.

None of these requirements is met in the instant

In particular, we emphasize that the defendant had

multiple opportunities to disengage before the shooting.
Here, all the record evidence, including the defendant's
own testimony, indicates that when the victim "[took] off"
across the street and away from the Miranda brothers, the
defendant had no reasonable basis for concluding that the victim
was armed.

At the time the victim began to run, Wayne was the

only person holding a gun, and according to the defendant's
testimony, he took that gun from Wayne before entering the
driveway.

Thus armed, the defendant voluntarily pursued the

fleeing victim, advancing down the entire length of the driveway

Appendix A

App.A 022
22

past a parked car and into the yard running perpendicular to the
driveway.

Along this way, he had at his disposal numerous

proper means and reasonably available avenues of escape to avoid
confrontation.19

See Commonwealth v. Mercado, 456 Mass. 198, 209

(2010), citing Commonwealth v. Benoit, 452 Mass. 212, 226 (2008)
("privilege to use self-defense arises only in circumstances in
which the defendant uses all proper means to avoid physical
combat"); Commonwealth v. Bertrand, 385 Mass. 356, 362 (1982)
(no basis for self-defense instruction where defendant's
testimony indicated no attempt to avoid fight with victim).
Indeed, the defendant testified that he had no intention of
trying to "escape" or "run away."

For these reasons, the judge

properly denied a self-defense instruction.

See, e.g.,

Commonwealth v. Espada, 450 Mass. 687, 693 (2008) (no selfdefense instruction warranted where, over one hour after victiminitiated fight, defendant emerged from behind Dumpster and made
armed approach toward victim's departing car, rather than

"Whether a defendant used all reasonable means of escape
before acting in self-defense is a factual question dependent on
a variety of circumstances, including the relative physical
capabilities of the combatants, the weapons used, the
availability of maneuver room in, or means of escape from, the
area, and the location of the assault. Before that question may
go to the jury, however, there must be some evidence that the
defendant attempted to retreat or that no reasonable means of
escape was available." Commonwealth v. Pike, 428 Mass. 393, 399
(1998), citing Commonwealth v. Maguire, 375 Mass. 768, 772,
(1978).
19

Appendix A

App.A 023
23

remaining safely hidden); Commonwealth v. Maguire, 375 Mass.
768, 769-772 (1978) (judge could have declined to instruct jury
on self-defense where, instead of returning inside and locking
door after threat from armed victim at his own doorstep,
defendant and his brother disarmed victim, chased him
downstairs, broke down his door, and assaulted him).
In reaching this conclusion, we recognize the defendant's
conjecture that, immediately after threatening to kill Wayne,
the victim ran down the driveway toward a potential "stash" that
might contain a weapon.

Nonetheless, the defendant's suggestion

that the victim might have retrieved a weapon from inside the
broken basement window, underneath the parked car, or somewhere
else along the driveway was pure speculation.

The victim's body

was found on the other side of the fence without a weapon, and
the police did not locate any weapon in proximity to his body,
or anywhere else in the vicinity.

There was, as the prosecutor

correctly emphasized in closing, no evidence that the victim was
armed.
Regardless, even if that speculation had some reasonable
basis, the defendant had numerous opportunities to retreat and
avoid the confrontation once the victim fled across the street.20

The defendant faults trial counsel for failure to
properly investigate his proposed defense. In the affidavit
submitted with his motion for a new trial, he stated:
20

Appendix A

App.A 024
24

"I requested that [trial counsel] file motions for
police reports concerning shootings and weapons
stashed in the neighborhood in the year or so before
[the victim] was killed (including the shooting at my
brother on [that street] by an unknown person two
weeks before [the victim] was killed, to which the
police responded). [Trial counsel] declined to do so.
. . . I requested that [he] obtain and use [the
victim]'s criminal record, which the court had ordered
produced in May 2008 in response to [my prior
counsel's] motion for criminal records. [Trial
counsel] did not obtain and use [the victim]'s
criminal record."
In his motion for a new trial, the defendant explains in detail
how this evidence would have corroborated the reasonableness of
his belief that the victim had a gun and posed a real threat to
him.
In the affidavit defense counsel submitted along with his
motion to withdraw, he reported "explaining to [the defendant]
that chasing an unarmed man with a gun and firing two rounds at
him, one which causes death, is not self-defense nor is there a
legitimate basis for 'necessity.'" This is correct. The
discovery that the defendant sought that defense counsel
declined to pursue would not have changed this analysis:
"[C]ounsel need not chase wild factual geese when it
appears, in light of informed professional judgment, that a
defense is implausible or insubstantial . . . as a matter
of fact and of the realities of proof, procedure, and trial
tactics."
Commonwealth v. Tuitt, 393 Mass. 801, 805 n.2 (1985), quoting
Cepulonis v. Ponte, 699 F.2d 573, 575 (1st Cir. 1983). Where
defense counsel told the judge, "I've done my due diligence,"
and none of the evidence the defendant sought could have changed
the fact that he never tried to retreat before resorting to use
of deadly force, "[c]ounsel's decision to forgo further
investigation of the defendant's [proposed theory] was an
informed exercise of his prerogative to decide on the defense
strategy." Commonwealth v. Kolenovic, 471 Mass. 664, 675
(2015), S.C., 478 Mass. 189 (2017). See Strickland v.
Washington, 466 U.S. 668, 691 (1984) (limited extent of defense
counsel's investigation of self-defense reasonable to extent
based upon reasonable professional judgment).

Appendix A

App.A 025
25

Instead, the defendant armed himself with a gun and pursued the
fleeing victim across the street, down the driveway, past a
parked car, and into the back yard.

Before the driveway's end,

the victim made a left turn and ran north, across the yard,
where he climbed the picket fence.

All along this way, the

defendant could have retreated and avoided shooting the victim.
Finally, even accepting the defendant's testimony that at
the time he fired the gun, the victim was not "going away" but
rather "coming back around," while apparently holding a "nickelplated" "firearm," the law would not excuse the defendant's use
of deadly force in self-defense at that point, where the
defendant's own aggression and failure to retreat created that
situation.

The defendant and his brother should have disengaged

from the confrontation long before that moment, and had numerous
opportunities to do so.

This combined failure to retreat and

unnecessary escalation of conflict necessarily precludes a
finding of self-defense.21

See, e.g., Espada, 450 Mass. at 694

(self-defense instruction unwarranted where "defendant's own

The defendant's reliance on Commonwealth v. Ortega, 480
Mass. 603 (2018), is misplaced. There, we announced that "[i]f
a person is threatened with death or serious bodily injury by an
aggressor armed with a firearm, in open space away from cover or
safety, it would be unreasonable to impose a categorical rule
that requires him or her to be shot in the back in a fruitless
attempt to retreat." Id. at 611. Here, in contrast, the
defendant was the armed aggressor, any belief that the victim
had a gun was purely speculative, and the defendant had multiple
opportunities to seek cover and safety.
21

Appendix A

App.A 026
26

evidence [demonstrated] . . . that he initiated the altercation
and created the circumstances by which he alleges he could not
retreat").
2.

Constitutional claims.

The defendant asserts

violations of his State and Federal constitutional rights,
including his right to testify in his own behalf, his right to
the effective assistance of counsel, and his right to control
his own defense.

The defendant independently made two critical

constitutional choices, as was his exclusive right.

First, he

chose to be represented by appointed counsel rather than
represent himself, necessarily limiting the extent of his direct
personal control over trial management decisions.

Against the

advice of counsel, he also chose to testify at trial, thereby
waiving his privilege against self-incrimination and ultimately
incriminating himself.

The defendant was permitted to testify

to his version of the facts as desired, albeit in uninterrupted
narrative form, without direction from counsel.

Although it was

error to require that the defendant's testimony take narrative
form without his attorney's express prior invocation of Mass. R.
Prof. C. 3.3 (e), 426 Mass. 1383 (1998), see Commonwealth v.
Mitchell, 438 Mass. 535, 546, cert. denied, 539 U.S. 907 (2003)
(requiring defense counsel's good faith determination, "based on
objective circumstances firmly rooted in fact," that defendant
intends to perjure him- or herself, prior to invoking rule and

Appendix A

App.A 027
27

seeking court's guidance), we conclude that there was no
substantial likelihood of a miscarriage of justice arising out
of this error.

Once the defendant insisted on testifying to an

intentional killing where there was no viable self-defense
claim, the form of the testimony was of no significance.

In

sum, the jury's verdicts were the ultimate consequence of the
defendant's own informed choices, and there was no substantial
likelihood of a miscarriage of justice arising out of the error
regarding the form of his testimony.
a.

Relevant procedural context.

We begin with the

necessary background that informs our discussion.
i.

First motion to withdraw.

At the defendant's request,

his first counsel filed a motion to withdraw as the defendant's
counsel on December 15, 2011, citing breakdown of the attorneyclient relationship "with no reasonable chance of repair."

At

an in camera hearing, the defendant's first counsel described
the defendant's case as "very, very defensible," given the
neighbor's significant credibility problems, where she alone had
identified the defendant as the shooter.

The defendant objected

to this counsel's proposed strategy, insisting he fired the gun
in self-defense and would so testify, thereby corroborating the
neighbor's most significant testimony and "undercut[ting]" the
strategy his counsel, in exercise of his professional judgment,
deemed best.

Although the first counsel had helped the

Appendix A

App.A 028
28

defendant obtain some of the discovery materials he believed he
needed for his defense, the defendant explained that his first
counsel would not proceed to trial in the manner the defendant
wanted the case to be tried.

The defendant told the judge that

he was already thirty-five, and "[a]t the end of the day, this
is my life.

This is if I go home."

A judge ultimately allowed the first counsel's motion to
withdraw.

The judge also expressly warned the defendant that

should he encounter similar divergence with new counsel, any
request for further replacement counsel was all but destined for
denial, and that the defendant risked facing a finite choice
between proceeding with his second counsel and representing
himself.

The defendant said he understood and immediately

requested a new attorney.

He received new appointed counsel,

who ultimately tried his case.
ii.

Second motion to withdraw.

One and one-half years

later, the defendant and trial counsel in this case also found
themselves before the trial judge, in camera, on another motion
to withdraw.

22

The defendant sought new counsel.

He had filed

a pro se motion for a 120-day continuance more than one month

Although the relief requested in the motion was
permission to withdraw or to take on the role of standby
counsel, defense counsel expressly requested "guidance from this
Honorable Court regarding a breakdown in communication that has
occurred with the Defendant as to how to defend this matter."
22

Appendix A

earlier.23

App.A 029
29

In that pro se motion, he contended that his defense

could not be prepared adequately without first obtaining
additional discovery.24

Counsel told the judge that he had "a

good relationship" with the defendant, but the defendant wished
to proceed on a "suicidal" theory of defense "not based upon the

On April 24, 2013, the court mailed the defendant a copy
of a docket entry referencing his motion, stating: "The Court
does not act on motions where the defendant has counsel when the
motion is filed pro se." During a subsequent final pretrial
hearing in his case, the defendant asked to address the court
directly; the judge replied that he should speak with his
lawyer. After a brief private exchange with the defendant,
defense counsel stated, "for the [c]ourt's record," that the
defendant had provided him with certain additional motions, but
counsel declined to file them, because they undercut the defense
strategy counsel had decided to pursue at trial. As the hearing
neared an end, the defendant asked counsel to make an oral
motion to withdraw. After hearing from both parties, the court
explained that, "[t]o the extent [counsel] has not made certain
filings, counsel may do that because, in their view, it is
simply not helpful to a strategy of the case or that they are
frivolous." The court then denied the defendant's motion
insofar as it constituted a request for new counsel, and advised
the defendant that his counsel was "an extremely experienced and
very good counsel" who had filed "thorough papers" on the
defendant's behalf.
23

The defendant reported that he had asked counsel to file
motions "to introduce evidence of police reports of firearms
found in hidden locations around the vicinity and police reports
of shootings that happened in the vicinity a week prior and a
shooting that had occurred at my residence." Counsel declined,
and instead filed a motion in limine to introduce Wayne's
gunshot residue test results "against my wishes not to." The
defendant asserted that this was a denial of due process and
effective assistance of counsel, and that this was why he had
asked counsel to move to withdraw. With respect to the motions
the defendant wanted filed, counsel explained: "They were all
based on his theory of defense. . . . I was certainly not going
to file those motions while having, at the same time, absolutely
no anticipation of going down that path on his behalf."
24

Appendix A

App.A 030
30

facts of the case as [counsel knew] them to be," and lacked any
legal foundation.

During their last meeting, counsel had

explained to the defendant why asserting self-defense or
necessity defenses at trial was "unsound strategy," noting that
he "certainly would not partake in any subornation of perjury."
Counsel had formulated an evidence-based defense, and declined
to pursue a legally inviable strategy "simply because [the
defendant] chose to have that as his defense."

In response, the

defendant cited his long-standing, consistently communicated
intent to testify that he shot the victim in self-defense, and
told the judge that he could not accept a strategy that would
"place the guilt" on Wayne, because the defendant "[knew] what
really happened" and that Wayne did not shoot anyone.
The judge ultimately told the defendant that given the age
of the case, the defendant's apparent history of losing
confidence in "highly experienced, highly competent" defense
counsel, and the one hundred jurors waiting to be empanelled,
"[t]his case has got to be tried."

When asked, the defendant

told the judge, in no uncertain terms, that he did not want and
was not prepared to try the case pro se, even with defense
counsel serving as standby counsel.
The trial judge acknowledged the defendant's position, but
told him that it would not change the effect of "an attorney
coming before the Court and saying that they can't ethically

Appendix A

App.A 031
31

pursue that trial strategy even though they know that it's the
preference of their client."

Given that the defendant had

expressly stated that he was not prepared to represent himself,
and there was "no reasonable prospect" that different defense
counsel would come to any different conclusions with respect to
strategy or the wisdom of the defendant's intention to testify,
the judge denied the motion.
counsel, the judge stated:

In terms of guidance for defense

"until such time as [the defendant]

testifies, at least on my current view of the evidence, . . . an
aggressive pursuit of the strategy which you have . . .
indicated that you wish to follow would not be inconsistent with
what I understand to be [the defendant's] testimony."25
iii.

Motion for a new trial.

Following his convictions,

the defendant, who was represented by new counsel, filed a
motion for a new trial.

His primary argument was that trial

counsel had contradicted the defendant's testimony that he shot
the victim in self-defense, depriving him of a meaningful
opportunity to exercise his right to testify and constituting
ineffective assistance.

He asserted that this alleged injustice

was exacerbated by the judge's failure to instruct the jury on
the law of self-defense, which the defendant contended his

Indeed, at a sidebar conference at trial, the defendant
recognized that "trial counsel's cross-examination was
excellent, but I still wish to exercise my right to testify."
25

Appendix A

testimony required.26

App.A 032
32

A different judge (motion judge) was

assigned to hear the motion, as the trial judge had retired by
the time the motion was filed.

Following a nonevidentiary

hearing, the motion judge entered an order denying relief, based
upon review of the record and the documentary evidence filed
with the motion.

Although counsel provided the court with the

transcripts of the relevant in camera hearings and a conference
between trial counsel and the defendant in a closed court room,
trial counsel did not submit any affidavit, and was not called
to testify at an evidentiary hearing.
Although the judge "accept[ed] the proposition that a
defendant's right to testify can be 'effectively negated,' by
his attorney's contradiction of the defendant's testimony," the
judge disagreed with the defendant that counsel had done that in
the defendant's case (citation omitted).

First, the judge

explained, "[t]he defendant had a full and unfettered
opportunity to tell the jury everything he wanted to tell them,"
and although counsel had not filed the defendant's discovery
motions, an attorney's "failure to introduce [additional]

The defendant also argued that his attorney provided
ineffective assistance by failing to move for a continuance or a
change of venue due to the then-recent Boston Marathon bombing
and by failing to challenge the racial makeup of the jury
venire. These issues are without merit and were not raised on
appeal.
26

Appendix A

App.A 033
33

evidence corroborating a defendant's testimony is not the same
as an attorney's contradiction of that testimony."
Next, the judge found that the defendant had not been
"abandoned" by counsel during his testimony, where the defense
associate helped introduce him to the jury, asked him to tell
his story, and ensured that he had nothing else to add.
According to the motion judge, the narrative form of testimony
"promote[d]" the defendant's right to testify and adequately
protected his right to present his own version of events.

"The

defendant's decision to assert that he, and not his brother,
shot and killed [the victim] in self-defense" was a fair
exercise of "Sixth Amendment-secured autonomy," but was
ultimately "a poor choice," since it did not support a selfdefense instruction, just as counsel had warned him it would
not.
The motion judge stated that counsel is not permitted to
argue a defense that is not supported by the evidence, and found
that "arguing in the alternative is an appropriate way for
defense counsel to handle the difficult situation that rises
when a client seeks to pursue a defense that counsel knows is
unwise."

Counsel never "encouraged the jury to reject [the

defendant]'s testimony" in closing.

Instead, "[o]nce the

defendant testified that he, and not his brother, shot and
killed [the victim], [defense counsel] made the best of a

Appendix A

App.A 034
34

difficult situation by properly arguing in the alternative that
if the jury believed the defendant, they could not find
premeditation and if they disbelieved him, the remaining
evidence was insufficient to convict."

Defense counsel also

raised the possibility that the defendant's testimony was
motivated by his love for his brother.

The alternative

arguments were "based on the evidence and the law," and neither
directly contradicted the defendant's testimony nor "violate[d]
the defendant's right to testify."

As explained infra, despite

one legal error related to the form of the defendant's
testimony, the motion judge properly denied the defendant's
motion for a new trial.
b.

Allocation of authority between counsel and defendant.

The Sixth Amendment to the United States Constitution and
art. 12 of the Massachusetts Declaration of Rights each provide
criminal defendants with a "right to choose between pleading
through a lawyer and representing oneself."27
California, 422 U.S. 806, 828 (1975).

Faretta v.

See Commonwealth v.

Tuitt, 393 Mass. 801, 807 (1985); S.J.C. Rule 3:10, § 3, as

In Lavallee v. Justices in the Hampden Superior Court,
442 Mass. 228, 234 (2004), this court held that "art. 12
provides a defendant with at least the same safeguards as the
Sixth Amendment" in terms of the accused's right to counsel.
"It is a right upon which the essential element of fairness in
the administration of justice depends." Guerin v. Commonwealth,
339 Mass. 731, 734 (1959).
27

Appendix A

appearing in 475 Mass. 1301 (2016).

App.A 035
35

By choosing to proceed with

counsel, the defendant chose to "protect [himself] from
conviction resulting from his own ignorance of his legal and
constitutional rights," Johnson v. Zerbst, 304 U.S. 458, 465
(1938), and necessarily placed certain limitations on his right
to control his defense.

See McKaskle v. Wiggins, 465 U.S. 168,

174, 183 (1984) (only defendant proceeding pro se is guaranteed
right actually and personally to "control the organization and
content of his own defense").

Those limitations, as explained

infra, empowered defense counsel to determine trial management
strategy and tactics, including whether a legal argument was
viable and ethical to pursue.

At the same time, the defendant

always retained exclusive authority to make "certain fundamental
decisions" regarding his own defense, including whether to
insist on his innocence or accept responsibility for a lesser
offense, and whether to testify on his own behalf.

Jones v.

Barnes, 463 U.S. 745, 751 (1983) (recognizing defendant as
"ultimate authority" on "whether to plead guilty, waive a jury,
testify in his or her own behalf, or take an appeal").

See

McCoy v. Louisiana, 138 S. Ct. 1500, 1508 (2018) (recognizing
defendant's prerogative to determine that objective of his
defense is asserting innocence).
As the United States Supreme Court recently explained in
McCoy, 138 S. Ct. at 1508:

Appendix A

App.A 036
36

"The choice [between representation by counsel and selfrepresentation] is not all or nothing: To gain assistance,
a defendant need not surrender control entirely to counsel.
For the Sixth Amendment, in grant[ing] to the accused
personally the right to make his defense, speaks of the
'assistance' of counsel, and an assistant, however expert,
is still an assistant" (quotations and citation omitted).
In delineating the respective rights of the defendant and
responsibilities of counsel, the Court juxtaposed (i) the
handful of fundamental decisions always reserved to the
defendant, "notably, whether to plead guilty, waive the right to
a jury trial, testify in one's own behalf, and forgo an appeal,"
with (ii) "the lawyer's province" of trial management:

"Counsel

provides his or her assistance by making decisions such as what
arguments to pursue, what evidentiary objections to raise, and
what agreements to conclude regarding the admission of evidence"
(quotation and citation omitted).

Id.

See Gonzalez v. United

States, 553 U.S. 242, 249 (2008) (elaborating why "[g]iving the
attorney control of trial management matters is a practical
necessity"); New York v. Hill, 528 U.S. 110, 114-115 (2000),
quoting Taylor v. Illinois, 484 U.S. 400, 417-418 (1988)
("Although there are basic rights that the attorney cannot waive
without the fully informed and publicly acknowledged consent of
the client, the lawyer has -- and must have -- full authority to
manage the conduct of the trial"); Faretta, 422 U.S. at 820
("[W]hen a defendant chooses to have a lawyer manage and present
his case, law and tradition may allocate to the counsel the

Appendix A

App.A 037
37

power to make binding decisions of trial strategy in many
areas").

See also Mass. R. Prof. C. 1.2 (a), as appearing in

471 Mass. 1313 (2015) (mandating that defense counsel "shall
abide by" certain fundamental decisions belonging to client).
This division of authority is not always clear,28
particularly when the views of defense counsel and the client
diverge.

In drawing the line between decisions reserved for the

defendant and those left to counsel, the Court has emphasized
that "[a]utonomy to decide that the objective of the defense is
to assert innocence belongs" to the defendant.

McCoy, 138 S.

Ct. at 1508.
"Just as a defendant may steadfastly refuse to plead guilty
in the face of overwhelming evidence against her, or reject
the assistance of legal counsel despite the defendant's own
inexperience and lack of professional qualifications, so
may she insist on maintaining her innocence [at trial].
These are not strategic choices about how best to achieve a
client's objectives; they are choices about what the
client's objectives in fact are."
Id.

Once the client identifies the objective of the defense as

asserting innocence, however, deciding which strategy and
tactics to deploy in achieving that objective remains a task

The Supreme Court has not established any precise test to
determine whether a particular decision is "tactical" as opposed
to "fundamental" in this respect. At least one vocal critic has
characterized this "tactical-fundamental dichotomy" as a "vague"
and inadequate approach to establishing "reasonable limits upon
the right of agency in criminal trials." Gonzalez v. United
States, 553 U.S. 242, 256-258 (2008) (Scalia, J., concurring in
judgment).
28

Appendix A

App.A 038
38

properly reserved to counsel -- at least where those decisions
require knowledge of the law or compliance with professional
ethical requirements.
Further complicating this question of the extent and nature
of a represented defendant's retained decision-making authority
is the defendant's absolute right to testify.

Deciding between

exercise or waiver of this right is one of those settled choices
reserved for the defendant, personally.

Still, "[w]hether the

defendant is to testify is an important tactical decision as
well as a matter of constitutional right."
406 U.S. 605, 612 (1972).

Brooks v. Tennessee,

In making strategic and tactical

choices about how best to achieve the defendant's objective of
maintaining innocence, then, defense counsel must therefore
respect and account for the defendant's right and desire to
participate in his own defense by testifying.29

As a matter of

professional judgment, defense counsel may strongly advise the
defendant not to testify, but the ultimate decision between
remaining silent (requiring the prosecution to prove its case

"That is not to say that the defendant can mandate,
through his desire to testify, that his attorneys adopt specific
trial strategies. Nor do we mean that counsel's actions cannot
be in tension with the substance of the defendant's desired
testimony: it is permissible for an attorney to adopt trial
strategies that effectively argue in the alternative to the
thrust of the defendant's testimony. Rather, defense counsel
cannot, through their trial actions, reduce their client's
constitutional right [to testify] to a nullity." People v.
Bergerud, 223 P.3d 686, 702 (Col. 2010).
29

Appendix A

App.A 039
39

based upon independent evidence) and telling his story in his
own voice (opening himself to cross-examination and the
introduction of prior convictions) belongs to the defendant.

As

"[o]ften, the decision is made only as the trial unfolds,"
Commonwealth v. Waters, 399 Mass. 708, 716, S.C., 400 Mass. 1106
(1987), after the defense has the full "opportunity to evaluate
the actual worth of [its] evidence," Brooks, 406 U.S. at 612,
defense counsel's task in planning strategy is made even more
difficult.

This requires a certain amount of flexibility on the

part of counsel to address multiple contingencies.
In McCoy, the Court held that defense counsel improperly
intruded on rights reserved personally to the defendant, when,
during the guilt phase of the defendant's capital murder trial,
over "intransigent and unambiguous [client] objection," counsel
admitted that the defendant was the killer, anticipating
improved odds that a sentencing-phase plea "urg[ing] mercy in
view of [his client]'s serious mental and emotional issues"
would succeed.

McCoy, 138 S. Ct. at 1507, 1512.

Despite

counsel's opening statement conceding the defendant's guilt, and
against counsel's advice, the defendant testified in his own
behalf during the trial's guilt phase, "maintaining his
innocence and pressing an alibi difficult to fathom."30

Id. at

Although the alibi was highly implausible, defense
counsel had no doubt that the defendant sincerely believed it,
30

Appendix A

1507.

App.A 040
40

The Louisiana Supreme Court had upheld the jury's three

death verdicts based on counsel's reasonable belief that
admitting guilt provided his client the best chance at avoiding
a death sentence.

The United States Supreme Court granted

certiorari to resolve "a division of opinion among state courts
of last resort" concerning defense counsel's ability to concede
guilt over the defendant's objection,31 and reversed on the
ground that defense counsel's concession of guilt had interfered
with his client's right to insist on his innocence.

Id. at

1507, 1512.
In the instant case, unlike in McCoy, or certain of the
State court cases cited therein, defense counsel and the
defendant shared the same principal objective:

outright

such that professional ethics rules regarding client perjury
were not implicated. See McCoy, 138 S. Ct. at 1510. After the
defendant's testimony, during the guilt-phase closing argument,
counsel "reiterated that [the defendant] was the killer." Id.
at 1507.
For comparison, the Court cited two State supreme court
decisions ordering new trials in cases where a defense counsel
advanced a guilt-based "defense" over his or her client's
protestations of innocence. McCoy, 138 S. Ct. at 1507, citing
Cooke v. State, 977 A.2d 803, 842-846 (Del. 2009), cert. denied,
559 U.S. 962 (2010), and State v. Carter, 270 Kan. 426, 440
(2000). Additionally, the Court cited a 2010 decision of the
Colorado Supreme Court remanding for further fact finding where,
upon denial of a request for appointment of new counsel, the
indigent defendant reluctantly had opted to proceed pro se, on a
self-defense theory, rather than proceed to trial represented by
counsel who planned to advance a mental impairment defense over
the defendant's express objection. Id. at 1510, citing People
v. Bergerud, 223 P.3d 686, 690-691 (Col. 2010).
31

Appendix A

acquittal.

App.A 041
41

They differed as to what strategic and tactical

approach should be used to achieve that end.

Trial counsel, and

the defendant's first counsel, each correctly concluded that the
defendant had a viable defense:

that the Commonwealth's

evidence left reasonable doubt whether the defendant was the
shooter, where the neighbor's testimony could be significantly
undermined through cross-examination, and the first reporter and
his friend, who could not see past the driveway entrance,
described Wayne's "angry" demeanor prior to and during his
pursuit of the unarmed victim, gun in hand, and the defendant
saying "no, no, no" and trying to push Wayne back toward the
house.
At the in camera hearing, the defendant objected to this
strategy, which he characterized as "blam[ing] it all on [his
brother]," whom he wanted to protect and defend.32

Instead, the

As defense counsel recognized, and the defendant himself
acknowledged during the in camera hearing, Wayne already had
been convicted of murder in the second degree and was serving a
life sentence. Furthermore, the defendant had not testified at
Wayne's trial that he was the shooter, nor was it in anyway
evident how such testimony could benefit Wayne, particularly
given this court's decision upholding the jury's general guilty
verdict in Wayne's case, upon finding sufficient evidence to
convict him as either a principal or joint venturer. See
Commonwealth v. Miranda, 458 Mass. 100, 113-114 (2010), cert.
denied, 565 U.S. 1013 (2011), S.C., 474 Mass. 1008 (2016) ("[I]t
[did] not matter [which brother] shot the victim" where
sufficient evidence supported conclusion that defendant
knowingly participated in shooting with requisite intent for
murder in second degree, either as principal or joint venturer).
32

Appendix A

App.A 042
42

defendant wanted to pursue a self-defense strategy in which he
would testify to being the shooter.

However, the defendant and

defense counsel differed on whether there was a viable selfdefense claim.

As explained supra, defense counsel was clearly

correct; no such claim existed, because the defendant had
numerous opportunities to retreat, but chose not to.

Analysis

of the law as applied to the facts of a defendant's case is the
clear responsibility of counsel, not the defendant.33
We discern no constitutional error in counsel's decision to
decline to build the defense on a meritless legal argument,
particularly in light of his apparent concerns about the
possibility of perjury, discussed infra.

The Supreme Court has

never required that such arguments be made or pursued.

"[T]he

Sixth Amendment does not require that counsel do what is
impossible or unethical.

If there is no bona fide defense to

the charge, counsel cannot create one and may disserve the

The defendant had clearly performed his own, incorrect
analysis of the self-defense doctrine, especially as it applies
to defense of the home. See, e.g., Commonwealth v. McKinnon,
446 Mass. 263, 267-268 (2006) (open porch and outside stairs of
defendant's home, where defendant stabbed and struck victim with
baseball bat, held not to constitute "dwelling" within meaning
of statutory "castle law" defense, G. L. c. 278, § 8A);
Commonwealth v. Carlino, 429 Mass. 692, 697 (1999), S.C., 449
Mass. 71 (2007) ("so-called 'castle' law, which relieves a
defendant from the duty to retreat when attacked in his or her
own home," not applicable where fatal encounter occurred in
defendant's driveway).
33

Appendix A

App.A 043
43

interests of his client by attempting a useless charade."
United States v. Cronic, 466 U.S. 648, 656 n.19 (1984).
Here, defense counsel did not concede the defendant's guilt
over objection or alleviate the prosecution's burden of proof on
any elements of the charges:

counsel's strategy was to create

reasonable doubt regarding the defendant's guilt, by undermining
the prosecution's limited evidence that the defendant, and not
his brother, was the shooter.34

This strategy had a real

possibility of success, as recognized by two capable and
experienced defense counsel.

It also avoided any need for the

defendant's own testimony, which trial counsel correctly
understood would result in conviction, as there was no viable
self-defense claim.

This also allowed counsel to steer well

clear of introducing testimony from his client that raised
concerns about possible perjury, thereby fully complying with
his own professional responsibilities.35

It also left the door

The defendant indicates concern that counsel's strategy
did not address the Commonwealth's joint venture theory -- that
if Wayne was the shooter, the defendant still could have shared
the requisite intent for murder. Before he testified, however,
the defendant was in a different position from that of his
brother. Witnesses had testified to him saying "no" and trying
to restrain his brother. His identity as the shooter, as well
as his shared intent to kill, were based on the testimony of the
neighbor, who saw the brothers converge in the driveway and
exchange words prior to the shooting.
34

Rule 3.1 of the Massachusetts Rules of Professional
Conduct, as appearing in 471 Mass. 1414 (2015), provides: "A
lawyer shall not . . . assert or controvert an issue . . .
35

Appendix A

App.A 044
44

open to the defendant's testimony, if he chose to exercise his
right to testify, contrary to counsel's advice.

We address that

testimony infra.
We recognize that once the defendant ignored counsel's
advice and testified, the viable defense strategy that counsel
had developed was significantly undermined.
a problem of the defendant's own making.

This was, however,

Although, in

developing a strategy to achieve his client's objective of
maintaining his innocence, counsel was required to consider the
defendant's persistent insistence that he would testify, we
cannot, with one exception, discussed infra, fault counsel's
step-by-step approach here.36

The defendant had the right to

insist on his innocence and could represent himself any way he
saw fit, but he could not insist that counsel base the defense

unless there is a basis in law and fact for doing so that is not
frivolous . . . . A lawyer for the defendant in a criminal
proceeding . . . may nevertheless so defend the proceeding as to
require that every element of the case be established."
First, counsel offered to withdraw, and allow the
defendant to proceed pro se, with or without his assistance as
"stand-by counsel." Then, once the defendant rejected that
offer, and the trial judge denied the motion to withdraw,
counsel attacked the Commonwealth's case based upon the
neighbor's doubtful credibility. Throughout this time, defense
counsel continued to advise the defendant that testifying was
against the defendant's best interest, but emphasized that the
final decision was his. And ultimately, when the defendant
rejected defense counsel's good advice, counsel responded to the
defendant's testimony with a closing argument encompassing
alternatives. This step-by-step approach was sensible and not
ineffective.
36

Appendix A

App.A 045
45

on a self-defense argument that was not viable and raised
concerns about possible perjured testimony.
In order "to make the adversarial testing process work in
the particular case," Strickland v. Washington, 466 U.S. 668,
690 (1984), defense counsel must be allowed adequate leeway to
exercise professional judgement.

"Defense counsel in a criminal

trial is more than an adviser to a client with the client's
having the final say at each point."
257 F.3d 1321, 1323 (11th Cir. 2001).

United States v. Burke,
Rather, defense counsel

is "an officer of the court and a professional advocate pursuing
a result . . . within the confines of the law."

Id.

This

requires the "exercise [of] . . . professional judgment to
decide tactics."

Id.

During the in camera hearing, the trial

judge explained this to the defendant succinctly:
"Attorneys aren't mouthpieces. . . . [A]ttorneys are
professionals who are trained in the dynamic of the
criminal courtroom and are bound by the [rules] of
professional responsibility and to, you know, do their
best for their clients but within the limits of
plausible testimony."
Importantly, the judge also offered the defendant the
opportunity to present his own defense, which would have allowed
him to pursue his self-defense theory without limitation.
expressly declined that opportunity, however, because he

He

Appendix A

App.A 046
46

believed it would "be detrimental to [his] case."37

In sum, the

rights of the defendant to insist on his innocence, and the
responsibilities of counsel to establish a trial strategy and
tactics to achieve that objective were properly recognized and
respected in the instant case.
c.

The defendant's right to testify and be fully heard in

his defense.

As was his right, and contrary to the advice of

counsel, the defendant chose to testify.

The right of an

accused to testify in a criminal case is one of those "certain
decisions regarding the exercise or waiver of basic trial rights
. . . of such moment that they cannot be made for the defendant
by a surrogate."

Florida v. Nixon, 543 U.S. 175, 187 (2004).

The defendant always retains the ultimate authority to decide
whether to testify, regardless of whether he has elected
representation by counsel.

See Harris v. New York, 401 U.S.

222, 225 (1971) ("Every criminal defendant is privileged to
testify in his own defense, or to refuse to do so"); Opinion of
the Justices, 300 Mass. 620, 625 (1938) ("It rests wholly upon
the volition of the defendant whether he shall fail to interpose

The defendant stated that he did not have the experience
to appear pro se before the jury and would not understand the
proceedings and rules to follow. "I can't say that I am
prepared to go pro se and have standby counsel because it will
be detrimental to my case." Instead, he requested another
attorney, who would file the discovery motions he believed were
necessary for his defense, and another year to prepare.
37

Appendix A

App.A 047
47

[the 'positive and unequivocal' art. 12 'shield' against selfincrimination], or not").

See also Mass. R. Prof. C. 1.2 (a)

("In a criminal case, the lawyer shall abide by the client's
decision, after consultation with the lawyer, as to . . .
whether the client will testify"); Commonwealth v. Jenkins, 458
Mass. 791, 803 (2011) ("The decision whether to testify is an
important strategic one to be made by the defendant in
consultation with his attorney").
The defendant's decision followed a personal colloquy with
the judge,38 and the defendant does not dispute on appeal that he
understood the risks of testifying to his version of the facts.
Neither the judge nor counsel placed any limitation on the
substance of the defendant's testimony, and he was provided the
opportunity to present his version of events to the jury.39

The

challenge on appeal concerns whether (i) the limitation imposed
on the form of testimony, and (ii) the content of counsel's
closing argument so undermined the defendant's testimony as
functionally to negate his exercise of the right.

See, e.g.,

Notably, the trial judge did not include any information
in his colloquy with respect to the risks of testifying in
narrative form. This risk also should have been explained to
the defendant, either by counsel or the judge. See Commonwealth
v. Leiva, 484 Mass.
,
(2020).
38

As the motion judge highlighted, once the defendant had
finished his narrative testimony, defense counsel's associate
asked him: "Anything else?" The defendant replied, "No, that's
it."
39

Appendix A

App.A 048
48

Commonwealth v. Salazar, 481 Mass. 105, 115 n.7 (2018) ("should
the defendant decide to testify to his or her side of the story,
respect for the defendant's personal autonomy requires that the
defendant's own attorney not undermine that decision").
i.

Narrative testimony.

The trial judge granted defense

counsel's request to have the defendant testify in narrative
form, rather than in the form of responding to directed
questioning.

Although the defendant appears to have been

present at sidebar at the time of this request, he voiced no
objection.

This all transpired after the judge's direct

colloquy with the defendant concerning his decision to testify,
and the defendant's confirmation of his decision.

The record

does not reflect whether defense counsel previously discussed
the arrangement with his client, or warned him about what its
effect might be upon the jury.

Nor does it demonstrate that

counsel prepared the defendant to testify, although counsel
clearly explained the law of self-defense and the dangers of
testifying given the law of self-defense.40
We have allowed defense counsel's request to have a
defendant testify in narrative form in the circumstances
governed by Mass. R. Prof. C. 3.3 (e), as appearing in 471 Mass.
1416 (2015), and associated decisions of this court.

See

At sidebar defense counsel stated that he did not know
exactly what the defendant would say on the stand.
40

Appendix A

Commonwealth v. Leiva, 484 Mass.
Mass. at 547-549.

,

App.A 049
49
(2020); Mitchell, 438

That rule, entitled "Candor Toward the

Tribunal," sets forth the professional expectations of "defense
counsel who knows that the defendant, the client, intends to
testify falsely."41

Mass. R. Prof. C. 3.3 (e).

Seventeen years

ago, in Mitchell, this court held that a defense counsel's own
determination that counsel "knows" the defendant intends to
perjure himself must be made "in good faith based on objective
circumstances firmly rooted in fact."

Mitchell, supra at 546.

Although counsel is not permitted to "ignore an obvious

41

In pertinent part, the text of that rule states:

"In a criminal case, defense counsel who knows that the
defendant, the client, intends to testify falsely may not
aid the client in constructing false testimony, and has a
duty strongly to discourage the client from testifying
falsely, advising that such a course is unlawful, will have
substantial adverse consequences, and should not be
followed. . . . If a criminal trial has commenced and the
lawyer discovers that the client intends to testify falsely
at trial, the lawyer need not file a motion to withdraw
from the case if the lawyer reasonably believes that
seeking to withdraw will prejudice the client. If, during
the client's testimony or after the client has testified,
the lawyer knows that the client has testified falsely, the
lawyer shall call upon the client to rectify the false
testimony and, if the client refuses or is unable to do so,
the lawyer shall not reveal the false testimony to the
tribunal. In no event may the lawyer examine the client in
such a manner as to elicit any testimony from the client
the lawyer knows to be false, and the lawyer shall not
argue the probative value of the false testimony in closing
argument or in any other proceedings, including appeals."
Mass. R. Prof. C. 3.3 (e).

Appendix A

App.A 050
50

falsehood," the standard is a high one, requiring counsel to
"resolve doubts about the veracity of testimony or other
evidence in favor of the client."42
comment 8.

Mass. R. Prof. C. 3.3

In Leiva, which is issued along with our opinion

here, we reiterate and reaffirm these requirements.

It is only

after making this determination, and failing counsel's best
efforts to dissuade the defendant from testifying falsely, that
counsel may formally invoke rule 3.3 (e) in the defendant's
presence at sidebar.
supra at

After appropriate inquiry, see Leiva,

; Mitchell, supra, the court must then decide how

the trial should proceed, which may include allowing the
defendant to testify in narrative form.
Although defense counsel here alluded to concerns about
possible perjury, he did not satisfy the necessary prerequisites
to invoke rule 3.3 (e) as we initially set forth in Mitchell and
later affirmed and expanded in Leiva.

Counsel did not make the

formal invocation of rule 3.3 (e), indicative of his having made

"Conjecture or speculation that the defendant intends to
testify falsely are not enough. Inconsistencies in the evidence
or in the defendant's version of events are also not enough to
trigger the rule, even though the inconsistencies, considered in
light of the Commonwealth's proof, raise concerns in counsel's
mind that the defendant is equivocating and is not an honest
person. Similarly, the existence of strong physical and
forensic evidence implicating the defendant would not be
sufficient. Counsel can rely on facts made known to him and is
under no duty to conduct an independent investigation."
Mitchell, 438 Mass. at 552.
42

Appendix A

App.A 051
51

a good faith determination, based upon circumstances firmly
rooted in fact, that the defendant intended to bear false
witness.

Rather, counsel equivocated:

"[B]ecause of what I

could anticipate the testimony being to an extent, I'm . . . a
little uneasy, as to directly questioning [the defendant]
. . . .

[C]learly, I wasn't there at the time, so I can't

obviously, nor would I ever, vouch for the credibility of any
witness."

In the absence of defense counsel's good faith

determination that there was a firm basis in fact to conclude
his client was about to perjure himself,43 counsel and the court
should not have restricted the form of the defendant's testimony
to an undirected narrative.
Where, as here, circumstances do not support defense
counsel's invocation of rule 3.3 (e), the defendant remains
entitled to the "guiding hand of counsel at every step in the
proceedings against him," including his own critical testimony.

The defendant stated several times, on the record, that
he was going to tell the truth. Given that the defendant's
determination to pursue a self-defense strategy based upon his
personal testimony dates to before trial counsel's appointment,
it is unlikely that the defendant changed his story during the
course of the representation. Without an affidavit from
counsel, there is no way to know what circumstances caused him
to become "uneasy." We do note, however, that following the in
camera hearing on the motion to withdraw, defense counsel had
the opportunity to create a private record, in a closed court
room, with only the defendant and necessary court security
personnel present (along with the court reporter). That record
is uninformative and certainly does not satisfy the requirements
of our rule 3.3 (e) doctrine.
43

Appendix A

Powell v. Alabama, 287 U.S. 45, 69 (1932).

App.A 052
52
Here, defense

counsel should have prepared the defendant to testify.

On that

basis, defense counsel then should have directed the defendant's
trial testimony, deploying professional judgment, skill, and
legal knowledge to assist the defendant in presenting his
version of events to the jury.

It was error not to do so.

That being said, once the defendant insisted that he
actually testify, admitted he was the shooter as he wanted to
do, and explained that he fired the shots intentionally after
following the victim into the back yard, there was little that
any defense counsel could have done to mitigate the resulting
damage.

It was the substance of the testimony the defendant

insisted on conveying, and not the form of the testimony, that
undermined the defendant's opportunity for acquittal.

As

explained in detail supra, self-defense simply was not a legal
defense available to this defendant, even accepting his
testimony as true.
testify.

The key decision here was whether or not to

Defense counsel effectively advised the defendant that

it was against the defendant's best interest to do so, but
appropriately deferred to the defendant's ultimate decision to
the contrary.

Counsel's mistake was in not directing that

testimony to the best of his ability, even when the client had
eschewed his advice.

Appendix A

App.A 053
53

We have yet to consider the appropriate standard of review
for a violation of rule 3.3 (e).

As we have explained supra,

the defendant's right to determine the over-all objective of his
defense -- outright acquittal -- was not violated in this case.
See McCoy, 138 S. Ct. at 1508.

He also was not prevented from

testifying, as he did so.

Either of these violations would

Id.

have constituted structural error, requiring reversal, but
neither occurred here.44
Moreover, neither the court nor defense counsel forced the
defendant to choose between exercising the right to testify and
the right to continued representation by counsel.

Compare

United States v. Midgett, 342 F.3d 321, 323 (4th Cir. 2003),
where the trial judge required the defendant to make "the choice
of either acceding to defense counsel's refusal to put him on
the stand or representing himself without further assistance of
counsel," and Brown v. Commonwealth, 226 S.W.3d 74, 78, 86 (Ky.
2007), wherein defense counsel "shook hands with the prosecutors
and left the courtroom," thereby "completely abandon[ing]
defendant during his narrative statement, cross-examination and

There is a difference between preventing the defendant
from testifying and placing limitations or restrictions on that
testimony. The rules of evidence, and rules such as Mass. R.
Prof. C. 3.3 (e), impose limitations or restrictions. They do
not deprive the defendant of the right to testify.
44

Appendix A

App.A 054
54

closing argument in the guilt phase of the trial."45

Here,

defense counsel continued to represent the defendant throughout
the trial, provided the defendant with careful advice regarding
the decision to testify, and ultimately deferred to the
defendant's desire to testify, although contrary to that advice.
More specifically, counsel correctly explained the law of selfdefense to the defendant and advised him not to testify,
astutely counselling that his testimony would result in his
conviction and not his objective, which was acquittal.

Defense

counsel also had concerns about suborning perjury, which clearly
influenced his decision to request narrative and not directed
testimony, but he did not make the necessary representations
required under our rule 3.3 (e) jurisprudence.

Thus, when the

defendant rejected defense counsel's good advice, counsel either
should have determined what the defendant wanted to tell the
jury and then guided the defendant's testimony through direct
examination, or made the necessary representations required by
our rule 3.3 (e) doctrine.

The question presented is what

standard of review applies to this type of error by counsel.

More commonly, a defendant faced with such a choice
instead elects to proceed with counsel, and courts have reversed
based upon the unfair total deprivation of the opportunity to
exercise the right to testify. See generally Midgett, 342 F.3d
at 325; United States v. Scott, 909 F.2d 488, 493-494 (11th Cir.
1990); United States ex rel. Wilcox v. Johnson, 555 F.2d 115,
120-121 (3d Cir. 1977).
45

Appendix A

App.A 055
55

We conclude that this type of error by counsel is not
structural.

Rather, it is properly analyzed as an issue of

ineffective assistance of counsel.46

Mitchell, 438 Mass. at 546

n.6 ("With respect to appellate review, we examine the
defendant's constitutional claims [relating to rule 3.3 (e)
violations] on effective assistance of counsel under
G. L. c 278, § 33E, which is more favorable to a defendant than

To establish a violation of the Sixth Amendment right to
counsel, a defendant must show both (1) that considering all the
circumstances, counsel's performance fell below an objective
standard of reasonableness, and (2) that counsel's deficiency
prejudiced the defense to the point of "a reasonable probability
that, but for counsel's unprofessional errors, the result of the
proceeding would have been different." Strickland, 466 U.S. at
687-688, 694. Unless the defendant can demonstrate "how
specific errors of counsel undermined the reliability of the
finding of guilt," there is generally no basis to find a Sixth
Amendment violation. Cronic, 466 U.S. at 659 n.26. Our own
test applicable to assess ineffective assistance of counsel,
established nearly a decade before the Strickland standard,
requires a defendant to show that (1) there has been "serious
incompetency, inefficiency, or inattention of counsel -behavior of counsel falling measurably below that which might be
expected from an ordinary fallible lawyer"; and (2) counsel's
poor performance "likely deprived the defendant of an otherwise
available, substantial ground of defence." Commonwealth v.
Saferian, 366 Mass. 89, 96 (1974). "[A] defense is
'substantial' for Saferian purposes where [the court has] a
serious doubt whether the jury verdict would have been the same
had the defense been presented." Commonwealth v. Millien, 474
Mass. 417, 432 (2016). An informed strategic decision amounts
to ineffective assistance "only if it was manifestly
unreasonable when made." Commonwealth v. Martin, 427 Mass. 816,
822 (1998). We have further explained that "the prejudice
standard under the Massachusetts Constitution 'is at least as
favorable to a defendant as is the Federal standard.'" Millien,
supra at 431, quoting Commonwealth v. Curtis, 417 Mass. 619, 624
n.4 (1994).
46

Appendix A

App.A 056
56

are the Federal or State constitutional standards").

Cf. McCoy,

138 S. Ct. at 1510-1511 ("Because a client's autonomy, not
counsel's competence, is in issue, we do not apply our
ineffective-assistance-of-counsel jurisprudence").

Thus,

"[w]here the claim of ineffective assistance is raised in a
motion for a new trial that has been denied, and where the
appeal from the denial of that motion is raised in conjunction
with a direct appeal under G. L. c. 278, § 33E, [we employ the
substantial likelihood of a miscarriage of justice standard and]
review to determine whether any conduct or omission by counsel
'was likely to have influenced the jury's conclusion.'"
Commonwealth v. Morales, 453 Mass. 40, 44 (2009), quoting
Commonwealth v. Wright, 411 Mass. 678, 682 (1992), S.C., 469
Mass. 447 (2014).

We conclude that there is no such likelihood

in the instant case.

The problem here was not the narrative

form of the testimony, but the testimony itself.

As he had no

viable self-defense claim, regardless of whether the testimony
was presented in narrative or directed form, there was no
likelihood that counsel's error prejudiced the defendant.47

Indeed, the error here would satisfy the higher standard
of harmless beyond a reasonable doubt. In the absence of any
viable self-defense claim, the defendant's armed pursuit of the
victim through the alley and around the corner, conclusively
established by the defendant's own testimony, compelled the
verdict in the instant case. Directed, or undirected, the
result would have been the same beyond a reasonable doubt.
47

Appendix A

ii.

App.A 057
57

Defense counsel's summation.

During his closing

argument, defense counsel emphasized to the jury that they were
the arbiters of witness credibility.

"[Y]ou can credit all of

what they said, you can credit none of what they said, that's up
to you."

The Commonwealth had not even pursued charges against

the defendant for years after the shooting, he argued, until the
neighbor, "who couldn't be bothered for those years . . .
because there was nothing at stake," decided to come forward as
a cooperating witness:

when she was caught trafficking cocaine,

had lost her suppression motion, and faced nearly certain
incarceration.

She was essentially a "paid witness," he

continued, given that the Commonwealth had expended more than
$14,000 to her benefit to relocate her under the terms of the
plea deal.

Defense counsel pointed out that the other

percipient witnesses, who had come forward right away, reported
seeing Wayne enter the driveway behind the victim with the gun
in his hand, and then, after the gunfire, seeing Wayne hand the
gun to the defendant upon their emergence from the driveway:
these reports led to Wayne's arrest.

It was only two years

after the shooting, counsel stressed, when the neighbor
experienced an "epiphany" to come forward and "to say what she
saw so she wouldn't have to go to prison," that charges were
brought against the defendant.

Appendix A

App.A 058
58

Defense counsel then addressed the defendant's testimony:
"[Y]ou can credit everything [the defendant] said.
that.

You can do

Take it at face value, that's what he did, that's what

happened."

Counsel further stated that, if that was what the

jury were going to do, they should carefully weigh the evidence
suggesting that this was not a premeditated murder; it all
happened fast, the defendant was angry, he did not have time to
think -- he just acted.

In the alternative, counsel continued,

"[Y]ou also have the option of not crediting [the
defendant] at all. That's up to you. . . . Maybe
[you think] he's doing that . . . to protect Wayne,
his baby brother. [The prosecutor] asked [the
defendant] himself, 'You loved your brother?' Answer:
'Yeah, I love him, he's my baby brother.' . . .
[M]aybe you think this guy is just out there
protecting his brother."
Counsel did not mention the defendant's testimony that he fired
in self-defense because he thought he saw the victim with a gun,
or the defendant's repeated testimony that it was not his intent
to kill the victim.

Defense counsel placed final emphasis on

the enormity of the burden of proof beyond a reasonable doubt,
and urged the jury to weigh the evidence, "piece by piece,
witness by witness, and come to a conclusion."
The defendant contends that this closing violated his right
to testify, because it suggested that his own counsel did not
credit his story, and effectively negated the version of events
he related on the witness stand -- that he had acted in self-

Appendix A

defense, and never intended to kill the victim.
counsel's closing was more subtle.

App.A 059
59
Defense

As a skilled defense lawyer,

he knew the defendant's claim of self-defense was not viable.
He had also not forsaken or contradicted his client, even going
so far as to advocate for a self-defense instruction, which the
judge correctly rejected.

At the same time, counsel had to make

the best argument he could on the defendant's behalf given the
defendant's own testimony describing an intentional shooting.
Defense counsel did so by relying on reasonable doubt; the
credibility problems of the primary witness against the
defendant (besides himself); the suggestion that the defendant
might just be trying to protect his younger brother; and
finally, the lack of premeditation if the jury did credit the
defendant's testimony that he shot the victim.
This is not a case where counsel failed to put the
Commonwealth to its proof by conceding guilt, or even admitting
some element of the charges, over the objection of a defendant
claiming factual innocence.

See, e.g., McCoy, 138 S. Ct. at

1509 (vacating death penalty verdict where attorney argued jury
should find defendant guilty but mentally ill over objection of
defendant whose testimony asserted factual innocence);
Commonwealth v. Triplett, 398 Mass. 561, 569 (1986) (entirely
and affirmatively abandoning insanity defense in closing by
conceding defendant had capacity for premeditation, also

Appendix A

App.A 060
60

undermining remaining defense theory); Cooke v. State, 977 A.2d
803, 843-844 (Del. 2009), cert. denied, 559 U.S. 962 (2010)
(fundamental right to testify effectively negated by objective
of defense counsel to have jury find defendant guilty but
mentally ill).

Rather, as the motion judge properly concluded,

defense counsel made the best arguments he could under the
circumstances when confronted with the defendant's admission of
an intentional shooting and the absence of a viable claim of
self-defense.

He made proper argument in the alternative,

providing the jury a path to an acquittal if the jury decided to
believe that the defendant's testimony was designed to protect
his younger brother, or to a verdict of less than murder in the
first degree if the jury credited the defendant's testimony.
Contrast Triplett, supra (urging jury to credit testimony of
defendant's mother "a hundred percent," and implicitly to reject
defendant's wholly contrary story, not only undermined
plausibility of defendant's self-defense narrative, but also
eroded counsel's own voluntary manslaughter strategy); People v.
Bergerud, 223 P.3d 686, 706 (Col. 2010) (remanding for further
fact finding as to possible counsel threats to "completely
contradict [defendant's] testimony were he to offer it, or . . .
otherwise persist in wholly undermining the believability of his
testimony").

In so doing, defense counsel did the best he could

to secure the defendant's acquittal, and avoid his conviction of

Appendix A

App.A 061
61

murder in the first degree, while respecting the defendant's
right to testify as he so desired.
3.

Grand jury.

The defendant filed a pretrial motion to

dismiss the indictments in November 2009, contending that the
Commonwealth's deliberately misleading presentation of evidence
impaired the integrity of the grand jury proceedings.
Specifically, he alleged that the prosecutor (i) intentionally
deemphasized some and omitted other material evidence that would
have greatly undermined the credibility of the Commonwealth's
key witness, and (ii) chose to incorporate segments of a videorecorded witness interview containing irrelevant and unfairly
prejudicial statements.

Following a January 2010 evidentiary

hearing and subsequent supplemental briefing, a judge entered an
order and memorandum denying the motion.

The judge reasoned

that the Commonwealth had satisfied its disclosure obligations
by eliciting the essential circumstances of the neighbor's
cooperating testimony, and that while certain statements "of
dubious relevance . . . should have been excised" from the
challenged recording, none was so prejudicial that the grand
jury probably would not otherwise have indicted the defendant.
The judge did not err in denying the defendant's motion to
dismiss.

The grand jury heard sufficient evidence to understand

the crux of the issue bearing on the neighbor's credibility -that she faced pending drug charges and had offered her truthful

Appendix A

App.A 062
62

testimony in exchange for avoiding jail time.

This was enough

to allow a meaningful opportunity for the grand jury to consider
the neighbor's status as a cooperating witness when weighing her
credibility.
While it was error to play portions of the video recording
of the first reporter's interview with police wherein he
expressed concern for his safety and fear of retaliation by the
Mirandas, as well as his desire to see the killer brought to
justice, we agree with the motion judge's conclusion that,
although these irrelevant statements should have been redacted,
they were not so inflammatory as to impair the integrity of the
grand jury proceeding.

Witnesses in murder cases often fear

retaliation and aspire to see a killer brought to justice.

We

are confident that the grand jury would have indicted the
defendant notwithstanding the impropriety here.
4.

Motion to suppress statements.

The defendant

challenges the admission of certain statements he made to
officers at the New Bedford police station without the benefit
of prior Miranda warnings.

He contends that his pretrial motion

to suppress these statements should have been allowed.48

We

The hearing also concerned defense challenges to the
results of a skin test for gunshot residue, which the defendant
submitted to while at the police station on the night of the
shooting. The challenges on appeal do not extend to this
additional evidence, which was, in any event, properly admitted.
48

Appendix A

disagree.

App.A 063
63

The determination by the judge who heard the motion

to suppress that the defendant made the challenged statements
voluntarily and under noncustodial circumstances is supported by
the judge's subsidiary findings and a correct interpretation of
the applicable law.
When reviewing the denial of a motion to suppress, we defer
to the judge's determination of "the weight and credibility to
be given oral testimony presented at the motion hearing," and
accept the judge's findings of fact absent clear error, but
perform an independent review of the judge's legal
determinations.
(2004).

Commonwealth v. Wilson, 441 Mass. 390, 393

An interrogation is custodial if, based upon an

objective evaluation of the circumstances, Commonwealth v.
Larkin, 429 Mass. 426, 432 (1999), "a reasonable person in the
defendant's shoes would have perceived the environment as
coercive," Commonwealth v. Wadsworth, 482 Mass. 454, 481 (2019).
The judge properly applied the guidance of Commonwealth v.
Groome, 435 Mass. 201, 212 (2001), using the four factors set
out in that decision to guide his analysis.49

In Groome we identified four, nonexclusive factors to
consider: "(1) the place of the interrogation; (2) whether the
officers have conveyed to the person being questioned any belief
or opinion that that person is a suspect; (3) the nature of the
interrogation, including whether the interview was aggressive
or, instead, informal and influenced in its contours by the
person being interviewed; and (4) whether, at the time the
incriminating statement was made, the person was free to end the
49

Appendix A

App.A 064
64

The judge found that only one of the four Groome factors
weighed in favor of a custody finding:

the place of

interrogation, the New Bedford police station.

The defendant

was not taken to the station against his will.

An officer told

the defendant that other officers would want to question him,
and asked the defendant to get into the back seat of his
cruiser.

When the defendant complied, he was not handcuffed,

and he was not placed under arrest.

See Commonwealth v. Cruz,

373 Mass. 676, 682 (1977) (evidence supported finding that
"defendant consented to enter the police cruiser and to go to
the station for questioning").
potential witness."

The officers considered him "a

They also did not appear to communicate to

the defendant that he was a suspect.50

The motion judge found

interview by leaving the locus of the interrogation or by asking
the interrogator to leave, as evidenced by whether the interview
terminated with an arrest." Commonwealth v. Groome, 435 Mass.
201, 211-212 (2001).
The motion judge's finding that one officer told the
defendant he was not a suspect was, however, clearly erroneous.
At the motion hearing, the officer testified that when he first
met with the defendant, as far as he was concerned, the
defendant was not a suspect, and he would have characterized the
questioning as an interview of a potential witness at that time.
The officer also stated that the defendant "was not a suspect"
to explain why he did not read the defendant Miranda rights
prior to the interview, and why he did not record or offer to
record the interview. On the other hand, at the end of the
interview, the officer remarked that submitting to the gunshot
residue test, which the defendant had twice previously refused,
would be "a good way to get [the defendant] off the suspect
list." Since the officer posed no further questions to the
defendant following this remark, however, it could not have
50

Appendix A

App.A 065
65

that the questioning was conversational; the officers' approach
was of an informational nature and their questioning was not
accusatory but "investigatory in nature."

They asked the

defendant whether he would speak with them, and he consented
without hesitation.

Finally, and most importantly, the

defendant was free to leave:

indeed, he left after the

questioning ended, and police did not arrest him until more than
two years later.

The evidence did not support a finding of

custodial interrogation, and the judge found that failure to
administer Miranda warnings was of no consequence.

The judge

properly denied the motion to suppress the defendant's
statements.
5.

Review under G. L. c. 278, § 33E.

"It is our statutory

duty 'to consider broadly the whole case on the law and the
facts to determine whether the verdict is consonant with
justice.'"

Salazar, 481 Mass. at 118-119, quoting Commonwealth

v. Vargas, 475 Mass. 338, 363-364 (2016).

Upon review of the

entire record as required under G. L. c. 278, § 33E, we are
confident that our adversary system functioned effectively to
produce a just result in this case.

The defendant's

convictions, as well as the orders denying his pretrial and
postconviction motions, are affirmed.

affected the circumstances of the interrogation. Before the
defendant submitted to the test, he was free to leave.

Appendix A

So ordered.

App.A 066
66

Appendix A

LENK, J. (concurring).
trial is unwarranted.

App.A 067

I agree with the court that a new

I write separately only to underscore

that the erroneous use of narrative testimony, because it was a
misstep solely attributable to counsel, properly is viewed
through the lens of ineffective assistance of counsel.
As the court rightly notes, trial counsel lacked a good
faith basis to believe that his client intended to commit
perjury, a necessary prerequisite for invoking Mass. R. Prof.
C. 3.3 (e), as appearing in 471 Mass. 1416 (2015).

Rather,

counsel sought permission for the defendant to give narrative
testimony simply because he did not know what his client
intended to say on the stand.

Counsel's lack of awareness was

reflected in a conversation between the judge and defense
counsel that occurred at sidebar:
Defense counsel: "I'm going to ask the Court if it would
allow me by way of presenting [the defendant], if I could
introduce him to the jury and then have him give a
narration as opposed to being directly questioned by me,
and that way he would have an opportunity to express what
he wishes to express."
The judge:
question?"

"You mean as opposed to going question by

Defense counsel:

"Yes.

I would prefer the Court's --"

The judge: "Well, let's wait and see how that goes.
inclined to permit that."

I'm

Defense counsel: "Just simply, because of what I could
anticipate the testimony being to an extent, I'm not fully
aware, despite my best efforts to extract every nook and
cranny, which makes me a little uneasy, as to directly

Appendix A

App.A 068
2

questioning him, hence, if he wishes to exercise his right,
I think it may be best suited for him to do his narration."
The judge: "Your concern being because you're not
completely confident about what [the defendant] is going to
be saying --"
Defense counsel:

"Correct."

Once the trial judge received this request, it was
reasonable to rely on counsel's representation that direct
examination would not be a sufficient vehicle for vindicating
the defendant's right to testify and present his defense.

Cf.

Commonwealth v. Mitchell, 438 Mass. 535, 552, cert. denied, 539
U.S. 907 (2003) ("In evaluating the situation, the judge will
have to rely on the representations of counsel, which of
necessity will be cryptic, because counsel is the one who must
make the disclosure while maintaining client confidences and
allowing for continued zealous advocacy at trial").

Under these

rather unique circumstances, the trial judge did not err by
permitting -- not mandating -- the use of narrative testimony.
Cf. State v. Francis, 317 Conn. 450, 465-467 (2015) ("the court
effectively conveyed to the defendant that he had two, and only
two, choices:

[1] testify and self-represent; or [2] relinquish

the right to testify and maintain the assistance of counsel");
Brown v. Commonwealth, 226 S.W.3d 74, 85 (Ky. 2007) (accord).
Had the judge instead, acting under the aegis of Mass. R.
Prof. C. 3.3 (e), erroneously prevented counsel from conducting

Appendix A

App.A 069
3

a direct examination of the defendant, I could not view this
error through the lens of ineffective assistance of counsel.
Applying that standard would recognize only part of the problem,
and thereby would fail to capture the effect that the judge's
error would have had on the structure of the trial itself.
Rather, as this court and the United States Supreme Court
long have held, when the State completely deprives a defendant
of the right to counsel at a critical stage, that is reversible
structural error.

See Garza v. Idaho, 139 S. Ct. 738, 744

(2019) ("no showing of prejudice is necessary 'if the accused is
denied counsel at a critical stage of his trial'"), quoting
United States v. Cronic, 465 U.S. 648, 659 & n.25 (1984) ("[The
United States Supreme Court] has uniformly found constitutional
error without any showing of prejudice when counsel was either
totally absent, or prevented from assisting the accused during a
critical stage of the proceeding"); Ferguson v. Georgia, 365
U.S. 570, 595–596 (1961) (statute mandating narrative testimony
violated right to assistance of counsel); Commonwealth v.
Valentin, 470 Mass. 186, 194 (2014) ("denials of counsel
constitute structural error and require no showing of prejudice
to warrant reversal").
Here, however, it was counsel, and not the judge, who
improperly limited his own ability to assist the defendant
through direct examination.

Where that unilateral misstep did

Appendix A

App.A 070
4

not entirely deprive the defendant of his right to the
assistance of counsel at a critical stage, cf. McCoy v.
Louisiana, 138 S. Ct. 1500, 1509 (2018), the ineffective
assistance of counsel standard properly assesses both the nature
and impact of this error.

Appendix B

App.B 001

Appendix B

App.B 002

Appendix B

App.B 003

Appendix B

App.B 004

Appendix B

App.B 005

Appendix B

App.B 006

Appendix B

App.B 007

Appendix B

App.B 008

Appendix B

App.B 009

Appendix B

App.B 010

Appendix B

App.B 011

Appendix B

App.B 012

Appendix B

App.B 013

Appendix B

App.B 014

Appendix B

App.B 015

Appendix B

App.B 016

Appendix B

App.B 017

Appendix B

App.B 018

Appendix B

App.B 019

Appendix B

App.B 020

Appendix B

App.B 021

Appendix B

App.B 022

Appendix B

App.B 023

Appendix B

App.B 024

Appendix B

App.B 025

Appendix B

App.B 026

Appendix B

App.B 027

